1441 Main Street, Suite 500 * Columbia, SC 29201 * (803) 929-3000*
May 16, 2007
FOR IMMEDIATE RELEASE
CONTACT PERSON: NANCY C. WICKER
(803) 929-3000
GUILTY VERDICT
Columbia, South Carolina ---- United States Attorney REGINALD I. LLOYD,
stated today that, SAMUEL ANDREW GRAY, SR., age 67, and MARILYN D.
GRAY, age 70, both of Duluth, Georgia, were found guilty today in federal court in
Florence, to failure to pay taxes, a violation of Title 26, United States Code,
Section 7202, conspiracy to commit mail fraud, a violation of Title 18, United
States Code, Section 371, mail fraud, a violation of Title 18, United States Code,
Section 1341, money laundering, a violation of Title18, United States Code,
Section 1957, and receiving, possessing, and disposing of stolen property, a
violation of Title 18, United States Code, Section 2315. United States District
Judge Terry L. Wooten of Florence proceeded over the 9 day trial and will impose
sentence after he has reviewed the presentence report which will be prepared by
the U.S. Probation Office.
Evidence presented at the trial established that Samuel Andrew Gray, Sr.,
CEO of Stardancer and his spouse Marilyn D. Gray, Executive Vice President,
operated casino boats in Little River, South Carolina and several locations in
Florida from February 1999 through January 2003. The Grays were responsible
for withholding employment taxes from Stardancers 300 employees payroll
checks but failed to pay those taxes to the government. The Grays also failed to
pay excise taxes while operating the casino boats, resulting in a loss to the
United States of approximately $2.8 million. Evidence also showed the Grays
conspired to commit mail fraud from January 1999 through December 2002,
purchasing at least $148,000 in personal items with credit cards and paying for
those items with Stardancer Casino funds. Their scheme involved coding those
personal charges to Stardancers general ledger as business expenses to hide
the fact they were stealing money from the corporation. In addition, the evidence
showed the Grays purchased insurance, totaling approximately $17,500 for their
56 foot Sea Ray Yacht, over a two year period using Stardancer Casino funds.
Between December 1998 and January 2002, Sam Gray received 3 checks
totaling approximately $2.3 million from the Oakwood Deposit Bank Company,
Oakwood, Ohio, knowing the funds to have been stolen. Sam Gray engaged in
money laundering by depositing those funds in a financial institution. In total,
between the period November 1998 and January 2002, Sam Gray received
approximately $41 million directly or for the benefit of Stardancer. The Grays
also hired their children and Sam Grays mistress, then paid for their housing and
cars without investors knowledge.
The investigation into Stardancer was initiated in February 2002, when
Mark Steven Miller, President of the Oakwood Deposit Bank Company,
Oakwood, Ohio confessed to embezzling over $48.7 million, resulting in the
failure of that institution.
REGINALD I. LLOYD stated the maximum penalty SAMUEL ANDREW
GRAY, SR. and MARILYN D. GRAY could receive is a fine of $250,000.00
and/or imprisonment of 20 years.
Mr. Lloyd stated that the case was investigated by agents of the Internal
Revenue Service (IRS), Federal Deposit Insurance Corporation (FDIC) and
Federal Bureau of Investigation (FBI). Assistant United States Attorney William
E. Day, II. of the Florence office and Assistant United States Attorney Jennifer
Taylor of the criminal fraud division of the U.S. Department of Justice in
Washington, DC prosecuted the case.
# # # # #
Last Updated5/24/07
contact the OIG